No. _ _ __
In the
Supreme Court of the United States

Bilal Hamid Love,
Petitioner
vs.

United States of America,
Respondent

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit

CERTIFICATE OF COMPLIANCE
Gary A. Udashen
Counsel of Record
UDASHEN I ANTON
8150 N. Central Expressway
Suite MllOl
Dallas, Texas 75206
214-468-8100
214-468-8104 fax
gau@udashenanton.com

The undersigned attorney of record for the Petitioner hereby
certifies that this Petition for Writ of Certiorari is being filed pursuant to
the Court's April 15, 2020 order. The Petition is set out on 8 Y:i x 11 inch
paper and is 32 pages. A single paper copy of the document is being
submitted to the Court.
Signed on the 19th day of August, 2021.

~
GARY A. UDASHEN
Attorney of Record for Petitioner,
Bilal Hamid Love

2

